HHS/OIG, Audit - "Review of Duke University Medical Centers Reported
Fiscal Year 2006 Wage Data," (A-01-07-00511)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review
of Duke University Medical Centers Reported Fiscal Year 2006 Wage Data,"
(A-01-07-00511)
April 16, 2008
Complete
Text of Report is available in PDF format (1.1 mb). Copies can also be obtained by
contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
Duke University Medical Center (the Hospital) overstated
its wage data by $9,283,606 and 50,857 hours in its fiscal year (FY) 2006
Medicare cost report.  Correcting the Hospitals errors decreased the average
hourly wage rate from $31.51 to $30.96.  Under the acute-care hospital inpatient
prospective payment system, CMS adjusts the Medicare base rate paid to
participating hospitals by the wage index applicable to the area in which the
hospitals are located.  CMS updates the wage indexes annually based on
hospitals reported wage data.
We recommended that the Hospital submit a revised FY 2006 Medicare cost
report to the fiscal intermediary to correct the wage data overstatements and
implement review and reconciliation procedures to ensure that the wage data
reported in future Medicare cost reports are accurate, supportable, and in
compliance with Medicare requirements.
The Hospital agreed with most of our findings but disagreed, in part, that it
had included in its wage data unsupported costs for Part B services provided by
nurse practitioners.  Because the Hospital provided additional information on
these costs, we revised this finding.